HHS/OIG-Audit--"Review of Processing of Medicare Credit Balances at BlueCross/Blue Shield of Connecticut, (A-01-91-00515)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Processing of Medicare Credit Balances at Blue Cross/Blue Shield of Connecticut," (A-01-91-00515)
May 18, 1992
Complete
Text of Report is available in PDF format (1.7 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report of our audit of procedures used for processing outstanding Medicare credit balances at Blue Cross/Blue
Shield of Connecticut (Intermediary) and eight randomly selected Connecticut hospitals showed that improvements are needed
to ensure that identified Medicare overpayments are promptly refunded to the Medicare program. Our review of the eight
sampled hospitals showed that, as a whole, the hospitals did not always follow established procedures for refunding Medicare
overpayments within a reasonable time frame (60 days). We also noted that hospitals had attempted to return overpayments
to the Intermediary, but the Intermediary did not always take action to process the adjustments. Moreover, credit balance
reviews were not always performed by the Intermediary's provider audit unit during its field audits of hospitals' Medicare
cost reports because of other priorities.